HHS/OIG, Audit -"Graduate Medical Education for Dental Residents Claimed by the
University of Iowa Hospitals and Clinics for Fiscal Years 2001 and 2002,"(A-04-04-06011)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Graduate
Medical Education for Dental Residents Claimed by the University of Iowa Hospitals and
Clinics for Fiscal Years 2001 and 2002," (A-04-04-06011)
February 24, 2006
Complete
Text of Report is available in PDF format (430 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the University of Iowa Hospitals and Clinics (the
Hospital) included the appropriate number of dental residents in its full-time equivalent
(FTE) counts when computing Medicare graduate medical education (GME) payments for fiscal
years (FYs) 2001 and 2002. The Hospital generally included the appropriate number of dental
residents in its FTE counts used to compute FYs 2001 and 2002 GME payments. However, the
number of FTE residents claimed by the Hospital included didactic, i.e., classroom, time
for the residents when working in nonhospital settings.
We recommended that the Hospital work with CMS to resolve the $338,490 related to FYs 2001
and 2002 FTEs for the didactic time of residents assigned to nonhospital settings.  In
comments to our draft report, the Hospital acknowledged that it claimed the didactic time
but said that it believed that the time was allowable.